<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                       WEDNESDAY, MARCH 17, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Tester, and Alexander.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF TOM TIDWELL, CHIEF


             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN


    Senator Feinstein. Good morning, ladies and gentlemen. On 
behalf of the Interior, Environment, and Related Agencies 
Subcommittee, I welcome you to our hearing on the fiscal year 
2011 budget request for the U.S. Forest Service (USFS).
    I am pleased to welcome Tom Tidwell, the new Chief of the 
USFS. Chief, this is the first time you have had the 
opportunity to testify before the subcommittee, so I want to 
say we are all looking forward to your testimony and to working 
with you. Given all the changes in your proposed budget 
request, it is clear that we have a good deal to discuss.
    The President's request provides $5.38 billion for the 
USFS. That is an increase of $61 million, or 1 percent. Despite 
the constraints reflected on this budget, there are a number of 
important programs that receive increases.
    In particular, the budget request provides a total of $2.64 
billion for all wildland fire activities. That is an increase 
of $129 million over the enacted level. That is 5 percent. 
Within that amount, hazardous fuels reduction activities are 
funded at $349 million, roughly equal to this year's level.
    The budget also proposes $1.59 billion to fund operations 
for the Nation's forests and grasslands. That is a 2 percent 
increase. And State and private forestry programs receive a 4 
percent increase, for a total of $321 million. Land 
acquisitions increase by 16 percent, for a total of $74 
million.
    Now, there are also a number of program cuts. Funding for 
construction and maintenance of facilities, roads, and trails 
is cut by 21 percent for a total of $438 million. Road 
construction and maintenance is cut by 31 percent, for a total 
of $164 million. And this cut comes despite the fact that the 
service reports a $3 billion backlog in road maintenance as 
part of its budget request.
    And finally, funding for State and volunteer fire 
assistance is cut by 29 percent, a total of $57 million.
    I would like to speak for a moment about two major changes 
that are part of the request. One is the proposal to combine 
several of the agency's land management programs into a new 
integrated resource restoration account. We spoke about this 
yesterday. The other is a major restructuring of the agency's 
fire preparedness and suppression accounts.
    Let me begin with the wildland fire programs. The budget 
requests a total of $1.5 billion for fire suppression. That is 
an increase of $90 million, or 6 percent. It includes $1.2 
billion as part of the fire suppression account and $333 
million that has been shifted to the preparedness account.
    For years now, the USFS has been charging a portion of its 
preparedness costs to the fire suppression account, hiding the 
true cost of the agency's readiness needs. So I am pleased to 
see this shift to properly pay for those activities within the 
preparedness account, which is where they belong.
    All told, the budget requests $1 billion for firefighter 
salaries, training, and equipment. That is a 49 percent 
increase compared to 2010.
    Now, I support the level provided in this budget for fire 
suppression, but I am concerned that the request divides 
firefighting funds into three overly complicated accounts. Now, 
this is account one, $595 million for base fire suppression. 
Two, $291 million for the Federal Land Assistance, Management 
and Enhancement (FLAME) Fund, which was instituted by Congress 
last year to cover the cost of fighting large wildfires, and 
$282 million for a third account, the Wildland Fire Contingency 
Reserve, which is a reserve fund that can only be accessed by 
Presidential declaration. I do not understand the need to have 
three separate fire suppression accounts, and I hope you will 
explain that.
    An even more significant change is the proposal to merge 
three National Forest System programs to create a new $694 
million line item called the ``Integrated Resource 
Restoration'' program.
    Now, the administration has proposed this initiative to 
provide flexibility to fund restoration work it plans to do on 
the ground. I am concerned that this budget request leaves a 
lot of questions unanswered.
    First, why the administration feels such a significant 
restructuring of the budget is necessary to accomplish your 
restoration goals. I am concerned that collapsing three 
programs into one huge, new account reduces transparency and 
accountability regarding how these program dollars are spent, 
and I think others share that concern with me.
    I would also like to discuss how the USFS proposes to 
allocate funds for this initiative, particularly how the agency 
plans to implement a new $50 million priority watersheds and 
jobs stabilization initiative to fund large-scale restoration 
and create jobs in rural communities.
    And finally, I would like to discuss the impact that these 
changes will have on the availability of timber supply from 
national forests. Chief, I am hoping you can provide some 
clarity on how much timber the USFS plans to produce in fiscal 
year 2011 and how you plan to implement such a large increase 
in the use of stewardship contracting.
    These are important questions and they concern a number of 
Senators, and I hope you and your staff will help us work 
through this as we begin the process of drafting a bill.
    Now I would like to turn to my ranking member, Senator 
Alexander, for any comments that you may care to make.


                  STATEMENT OF SENATOR LAMAR ALEXANDER


    Senator Alexander. Thanks, Madam Chairman.
    Chief, welcome. Glad to have you here.
    I am glad to see Rocky Fork included in the USFS land 
acquisition fund. We are getting close to finishing that. It is 
your number one-ranked project, and it is a tremendous piece of 
property for the Cherokee National Forest.
    You are mostly a westerner, and we have a pretty good 
balance on this subcommittee. We are all interested in the 
whole country, but I used to think President Reagan had asked 
me to be chairman of the President's Commission on Americans 
Outdoors in the mid-1980s, and after going through that for a 
couple of years, I thought we probably ought to have two 
different environmental and conservation policies, one for the 
West and one for the East, because the issues were so different 
so much of the time. For example, in the West, so much of the 
land is owned by the Federal Government, but in Tennessee, 
North Carolina, in our area, very little is owned by the 
Federal Government. In our area, the Great Smoky Mountains and 
the Cherokee National Forest, which is adjacent to it on each 
end, are about it for us. So we have a completely different 
attitude toward the presence of a Federal Government. Even the 
conservative Republicans in the area where I live and have 
grown up are big fans of managing the Great Smokies as if it 
were a wilderness area and of protecting and encouraging the 
Cherokee National Forest.
    So we have those different attitudes, and they are 
represented here. I look forward to working with you on them, 
and I thank you for making the Cherokee National Forest a 
priority.
    Both the chairman and I have been interested in the impact 
of what some conservation groups have called the ``renewable 
energy sprawl'' on treasured landscapes. It makes no sense for 
us to spend $40 million buying the Cherokee National Forest and 
then sticking a bunch of 50-story wind turbines on top of it. 
You know, we do not want to destroy the environment in the name 
of saving the environment. So there are appropriate places for 
large wind turbines and solar thermal plants and biomass 
enterprises that use huge amounts of wood. But there are also 
inappropriate places.
    Several of us, including the chairman, have asked you and 
Secretary Salazar to do a report on how you plan to look at 
this so it does not happen in some haphazard way and so we do 
not unwittingly set in motion damage to our treasured 
landscapes. One example could be through history, looking at 
the abandoned land mines that we are struggling with. There are 
thousands of them in California and many more across the 
country. With a little foresight, we might not have had so 
many, and with the proper foresight, we might have our 
renewable energy projects in the right places instead the wrong 
places.
    You are an important steward of public land. For example, 
in the Eastern United States, the wind does not blow very much 
and the large wind turbines only work best on ridge tops. Well, 
we really do not--I do not, anyway--and I think most of us do 
not want to see 50-story wind turbines along the 2,000 mile 
Appalachian Trail vista, much of which is in national forest.
    So I have brought a letter with some suggestions. One I 
gave to Senator Salazar. One I will give to you with some 
suggestions about what you might consider for your report. And 
I will get back into during the question time.
    The other areas in which I will be interested are biomass 
harvesting, which I think is a good idea for getting dead pine 
trees out of the forests, a bad idea if we cut down too many 
trees; invasive species, which is very important in our area, 
as it is in other areas in the country; and of course, 
firefighting. That is not just a western concern, it is an 
eastern concern. I am told that 85 percent of the employees in 
the Cherokee National Forest spend some of their time fighting 
fires. So we are all interested in that. And the chairman has 
been a real leader in trying to separate the firefighting 
costs, urgently important, from all the other costs so we do 
not just have a national--the USFS does not become only a 
national firefighting agency. I know of your distinguished 
background in that area, but we want to keep it in balance.


                           PREPARED STATEMENT


    So, Madam Chairman, those are my concerns. I look forward 
to the opportunity to ask questions, and I welcome the Chief. 
Also, Senator Cochran couldn't make it today, but would like to 
offer a statement for the record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Madam Chairman, I am pleased to join you in welcoming the Forest 
Service Chief, Tom Tidwell, to the subcommittee this morning. Mr. 
Tidwell, thank you for joining us today to speak about the Forest 
Service's (USFS) initiatives for fiscal year 2011.
    Mr. Tidwell, I would also like to thank you for your hard work 
ensuring that our national forest system is maintained in a manner that 
allows for proper use of our Nation's forests and provides the needed 
resources to protect forest health.
    I have one comment I would like to make about the Center for 
Bottomland Hardwoods Research (Center) headquartered in Stoneville, 
Mississippi. This unit is part of the Southern Hardwoods Research 
Station. In 1996, the USFS research units in Mississippi, including the 
Southern Hardwoods Lab in Stoneville, the Forest Hydrology Lab in 
Oxford, and the Seed Biology Lab in Starkville merged to function as a 
research center with a common mission focus.
    The research that these units conduct is vitally important to both 
my State and the Nation. The good work that these researchers have 
undertaken has positively impacted national and State forests, as well 
as privately owned forest land.
    I was happy to request additional funding for this Center in 
previous appropriations bills and hope that the USFS will continue to 
focus its resources on the important work that Center is doing.
    Mr. Chairman, I thank you for holding this hearing, and I look 
forward to the testimony.

    Senator Feinstein. Thank you so much, Senator.
    Chief, would you like to proceed?

                    SUMMARY STATEMENT OF TOM TIDWELL

    Mr. Tidwell. Well, thank you. Madam Chairman, members of 
the subcommittee, it is a privilege to be here today to discuss 
the President's budget for the USFS. I appreciate the support 
this subcommittee has shown the USFS in the past, and I look 
forward to working with the subcommittee to provide more of the 
things that the American people need and want from the Nation's 
forests and grasslands.
    The President's budget request is designed to support the 
administration's priorities, Secretary Vilsack's priorities, 
for maintaining and increasing the resiliency of America's 
forests. The USFS is taking an all-lands approach. We want to 
work across boundaries and ownerships to address the critical 
issues that are facing the Nation's forests.
    The budget supports these priorities through five key 
objectives.
    The first is to restore and sustain forests and grasslands 
by increasing the collaborative efforts to build support for 
restoration activities that are needed to increase the 
resistance and resiliency of these ecosystems. The budget 
requests full funding for the Collaborative Forest Landscape 
Restoration Fund. It also proposes an integrated resource 
restoration budget line item which would align our budget 
structure with the restoration work that needs to be done on 
the landscape. It will facilitate an integrated approach to 
developing project proposals that will optimize multiple 
benefits.
    The second objective is to increase the emphasis on 
protecting and enhancing water resources and watershed health 
with a request for $50 million for a new Priority Watersheds 
and Job Stabilization Initiative. This is a pilot program that 
would fund large-scale projects that will focus on watershed 
restoration and job creation. We would use the statewide 
assessments and our own watershed assessments to look at the 
jobs that could be created or maintained and the opportunity 
for biomass utilization for the selection criteria.
    The third objective is that we will manage landscapes to be 
more resilient to the stressors of climate change by applying 
the science that is developed by the USFS research and 
development to increase the adaptive capacity of ecosystems. We 
want to use science to determine how our management needs to 
change to increase the ecosystems' resistance to the increasing 
frequency of disturbance events, such as fire, insect and 
disease outbreaks, invasives, flood, and drought.
    The fourth objective is that the budget request provides 
for full funding for wildland fire suppression, which includes 
a level of preparedness to continue our success to suppress 98 
percent of wildland fires during initial attack. It provides 
for a realignment of preparedness and suppression funds that 
more accurately displays the true costs. It provides for a 
FLAME Fund to increase the accountability and transparency for 
the costs of large fires and provides for a contingency reserve 
fund that will significantly reduce the need to transfer funds 
from other critical programs to fund fire suppression during 
the very active fire season. And it also increases the emphasis 
on hazardous fuel projects to reduce the threat of wildfire to 
homes and communities by doing more of the work in the 
wildland/urban interface.
    The last objective is to create jobs and increase economic 
opportunities in rural communities with the proposed Priority 
Watersheds and Jobs Stabilization Initiative, doing more work 
through stewardship contracting to build off the American 
Recovery and Reinvestment Act projects that encourage biomass 
utilization, continuing to work with the States to use the 
State and private forestry programs to address conservation 
across all lands, and through our job development with our 28 
Job Corps centers and our partnership with the Department of 
Labor. Our goal is to increase collaborative efforts to build 
support for science-based, landscape-scale conservation, taking 
an all-lands approach to conservation, to build a restoration 
economy, which will provide jobs and economic opportunity for 
communities across our Nation.
    I also want to clarify that we will continue to use timber 
sale contracts when a timber sale contract is the best tool for 
us to be able to get the restoration work done and the forest 
health work done. It will be used whenever it is the best tool, 
and the decision will not be based on the revenue that is 
produced off of any individual project.
    Again, thank you for the opportunity to address the 
subcommittee, and I look forward to answering your questions.

                          QUINCY LIBRARY GROUP

    Senator Feinstein. Thank you very much.
    I am going to be somewhat parochial in my questions. We 
discussed the Quincy Library Group (QLG) proposals, and it is 
my understanding that a Federal judge has lifted the 
injunction. So many of the projects are ready to go ahead. Are 
you on track to meet or exceed your initial target of 20,000 
acres in 2010? And what will be the number scheduled to meet 
the 40,000-acre minimum target in 2011 called for in the QLG 
legislation?
    Mr. Tidwell. Well, Madam Chairman, I want to thank you for 
the leadership that you have provided over the years and 
especially with the QLG.
    We are on track this year. In fact, the region has told me 
that they actually believe that they will be able to treat 
maybe 25,000 acres this year. With this budget request, we will 
be able to maintain the same level of funding for 2011 and a 
similar target accomplishment.
    Senator Feinstein. So $26 million for 2011?
    Mr. Tidwell. Yes.
    Senator Feinstein. I was hoping you could go to 40,000 
acres.
    Mr. Tidwell. Well, we will see. Based on what we are able 
to get done this year and as we move forward with the program 
of work for 2011, we will get back to you if the region feels 
that they can actually increase that to get closer to 40,000.

                TIMBER SALES AND STEWARDSHIP CONTRACTING

    Senator Feinstein. All right. I do intend to follow that.
    Now, your budget would eliminate the use of below-cost 
timber sales in fiscal year 2011, and there are only a handful 
of forests nationwide and only one forest in California, the 
San Bernardino, that had timber programs that turn a net 
profit.
    So what impact would this have on your ability to get 
forest management work done in my State?
    What percentage of your timber sales are considered below-
cost and would be affected by this change?
    And what impact would this prohibition have on the agency's 
ability to get the work done on the ground?
    Mr. Tidwell. Madam Chairman, thank you for the question. I 
want to clarify that with the subcommittee. We will be sending 
up a letter to clarify that we will not be restraining timber 
sale contracts based on the revenue that is produced. We want 
to look at the work that needs to be done on the landscape and 
then choose whichever is the appropriate tool, whether it be a 
stewardship contract or a timber sale contract. We do not even 
track which timber sale contracts actually produce a positive 
net revenue. We focus on doing the work, the things that need 
to be done on the landscape, and using the appropriate tool. So 
there will not be any restriction on using a timber sale 
contract or a stewardship contract.
    We do want to increase the use of the stewardship 
contracting. I think in many cases it is often----
    Senator Feinstein. Excuse me. I have an urgent call right 
outside. I am going to turn it over to the ranking member for a 
moment. You continue on and he will fill me in. I will be right 
back. Thank you.
    Senator Alexander. Please go ahead, Chief.
    Mr. Tidwell. To follow up with stewardship contracting, I 
do believe that it is a better tool in many situations. But we 
are going to use whatever tool is better. If a timber sale 
contract is the best tool to get the work done, we will use 
that, otherwise we will use a stewardship contract.
    It has been my experience that by using a stewardship 
contract, we can accomplish several different things. One, it 
is a more efficient business operation for the USFS. Instead of 
having multiple contracts to do various things on the 
landscape, we can have one contract. Stewardship contracting 
authority allows us to retain the receipts of any of the 
merchantable material and to use that to offset the costs of 
restoration.
    It has also been my experience that it helps build support 
for the work that we need to do across the landscape. When 
folks can see that we are not only dealing with the forest 
health concerns, dealing with hazardous fuel reduction 
concerns, but at the same time we are addressing the needs to 
improve wildlife habitat, to increase fisheries habitat, to 
provide for a better road system, to replace culverts, and we 
can put all this work together, it builds more support for the 
restoration work that needs to be done, and I think it provides 
more assurance that we are not just going to be doing the 
biomass removal. So, it is one of the things we are going to 
focus on in 2011, increasing the use of stewardship 
contracting.

        WIND ENERGY DEVELOPMENT ON NATIONAL FOREST SYSTEM LANDS

    Senator Alexander. Thank you, Chief.
    I will go ahead and ask my questions now, and when the 
chairman comes back, she will continue hers or we will go on to 
Senator Tester's.
    Not long ago, BP Alternative Energy notified the Huron-
Manistee National Forest it is planning to withdraw its 
application to build up to 22 wind turbines, each 420-feet 
tall, on Federal land. It would be a 75-acre parcel near the 
Lake Michigan coast. It would have required the development of 
5 miles of permanent new roads in the forests, the installation 
of more than 40 miles of underground electrical wirings or 
above ground, and several miles of above-ground transmission 
lines.
    To take another example--well, in that case, it has been 
said to me that it would be perfectly appropriate to put wind 
turbines in the middle of Lake Michigan or in the middle of 
Lake Huron where the wind blows better and you cannot see them. 
They do not interfere with the landscape. As I understand USFS 
policy, those decisions are simply made on an ad hoc basis by 
the local USFS manager based upon wind applications.
    To take another example, the Appalachian Trails runs for 
2,100 miles from Georgia to Maine. It runs through eight 
national forests. Those ridge tops are where the wind blows 
best in the East. So I guess under current USFS policy, we 
would leave it to each of the USFS managers whether it was a 
good idea to destroy the vista.
    I remember another example a couple or 3 years ago where in 
a national park, which is not your area, in order to get the 
money for it, whoever was managing Old Faithful allowed a big 
cell tower to be put up right next to the Old Faithful geyser, 
which is sort of a brain-dead decision in my opinion.
    These new renewable energy projects are massive in scale. 
The chairman has talked about the solar energy plants that are 
3 miles by 3 miles on the Mohave Desert, a biomass plant that 
produced just 100 megawatts, which is one-tenth of a nuclear 
plant--I figured out you would have to--well, to equal a 
nuclear plant, you would have to continuously forest an area 
the size of the Great Smoky Mountain National Park.
    So what are your plans? We have asked you and Secretary 
Salazar to give us your ideas about your policies for that. I 
have a letter for you with some ideas. But tell me what the 
USFS's attitude is, for example, toward large wind turbines on 
scenic ridge tops in the Cherokee National Forest or the White 
Mountain or other scenic forest ridge tops in the Eastern 
United States.
    Mr. Tidwell. Well, thank you, Senator. I look forward to 
seeing your letter. We are in the process of finalizing our 
policy regulations as far as dealing with wind energy, and that 
will be the policy that will help our line officers, our forest 
supervisors, address applications. We do have a responsibility 
to do what we can for renewable energy, to address the Nation's 
needs. On the other hand, we also have a responsibility to 
address the environmental effects of any type of energy 
development, whether it is renewable or not.
    So, when it comes to wind turbines, one of the things that, 
when we have an application, we will look at and factor in, are 
the environmental effects to see if this is actually a good use 
or the right use for the national forests and grasslands. One 
of the things that we always do look at is if there are other 
lands that are available for this type of use.
    So far we have not received very many applications. I do 
think that there may be certain places in the country that this 
may be an appropriate use, but so far we have just received a 
few applications.
    Senator Alexander. Let me ask this. In the case of oil and 
gas exploration, do you not have certain zones where you say it 
is permissible and certain other zones where it is not?
    Mr. Tidwell. We do go through a leasing analysis with oil 
and gas, and then----
    Senator Alexander. But you do not just allow an oil or gas 
company to come in and apply to drill anywhere you might want 
to in the national forest. Do you?
    Mr. Tidwell. If it is an area that is available for 
leasing, yes. And it is one of the things we need to look at as 
far as with wind turbine----

     RENEWABLE ENERGY DEVELOPMENT ON NATIONAL FOREST SYSTEMS LANDS

    Senator Alexander. Or solar plants. Would it not be wiser 
to establish zones or areas and say these are appropriate 
places, rather than just let entrepreneurs who might be 
attracted by a 3 cent per kilowatt hour Federal subsidy to come 
in and build a big turbine and then sell the tax credit off to 
some banker in New York or Chicago who then subdivides it like 
a real estate loan and sells it around the world? That is what 
actually happens with this stuff.
    I mean, four Democratic Senators just held a press 
conference and talked about $2 billion in the stimulus package 
that went for wind turbines, and 80 percent of the jobs were in 
China and Spain.
    So I am not even so concerned about wind versus nuclear, 
wind versus solar, or the stimulus package. I am more concerned 
about a rational policy for protecting treasured landscapes as 
we move in appropriate ways to take advantage of renewable 
energy so that we do it on the front end, not on the back end, 
and so that we do not find ourselves 20 years from now with an 
abandoned land mines situation where we have got a lot of mines 
that looked like a good idea when they were started, but years 
later they have become not just an eyesore but an expensive 
problem that needs to be cleaned up.
    My time is up. I will look forward to talking with you more 
about this, and I imagine the chairman would like to finish her 
questions.

             LAKE TAHOE BASIN--FIRE HAZARD FROM SLASH PILES

    Senator Feinstein. Thank you very much, Senator. I 
appreciate that.
    We also spoke about the Tahoe Basin, which has been a big 
priority for me. So I want to ask a question that specifically 
relates to the Lake Tahoe management unit. On February 9, 
Malcom North of the USFS's Pacific Southwest Research Station 
reported to researchers at a conference that he found high 
rates of tree mortality after the Angora fire because hand-
thinning treatments were piled and left unburned, which is a 
real problem in the area. He stated that if you have unburned 
piles throughout a treated area, it is almost like you did not 
do the treatment at all.
    My question is how will the Lake Tahoe Basin management 
unit reduce the number of unburned piles after treatment?
    Now, I walk a trail every year and see the piles, and I 
have commented on them and some have gotten burned and some 
have not gotten burned. But what I have always been told is, 
well, it depends on the burn days. And so it is a burn day and 
nothing is happening anywhere. So I ask why, and the question 
is answered, well, we cannot get the contractors. And then I 
find out that a lot of the work is done by prison inmates and 
you have to bring them all the way up to the lake, which takes 
3 hours, back which takes 3 hours, and the limited workday.
    So the question comes, how do you develop the contracting 
units that are on the spot and working 8 hours a day on these 
piles and creating the piles and then a year later burning the 
piles? What I have noticed is that the State park there has 
done a much better job, at least on the west side of the lake, 
than our people have done, and I wonder why.
    Mr. Tidwell. Well, Madam Chairman, thank you for the 
question.
    I do not know why, in this case, the State has been more 
effective than we have. I do know that we will finish up the 
last piles that need to be burned just as soon as we can get in 
there this spring and early summer.
    When we talk about the Lake Tahoe Basin, the long-term 
solution has to be something besides just piling this material 
and burning it. The number of days that we have where we have a 
clearing index so that the smoke will disperse and we also have 
conditions where we feel confident we can burn piles is very 
small. We then have to leave piles that are adjacent to trees, 
and if we get a wildfire like you referenced, then we will 
suffer mortality in those trees.
    The better solution is to find a way to make use of this 
material, to be able to use this residual material that needs 
to be removed and find some way to convert it to another use. 
Currently, we are struggling because I think the closest 
facility is about 75 miles away. Economically that does not 
work out. We have to find a way to develop additional 
infrastructure. I think the infrastructure needs to be closer 
to the areas where we have the fuel, and we need to make sure 
the material is the right size so that we can have a facility 
that we can haul this material to so we are not so dependent on 
the weather and only having certain days to burn.
    I can assure you that when we do have those days and we 
have the clearing limits we can burn. You have been up there in 
the basin on those beautiful summer days and people see a bunch 
of smoke. They often comment about it. That is not what they 
are usually coming to the basin for.
    So we will continue to have to do some burning, but I want 
us to be able to move forward and hopefully develop some 
additional infrastructure.

                LAKE TAHOE BASIN--BIOMASS INFRASTRUCTURE

    Senator Feinstein. I think that is right. I think you hit 
the nail on the head actually. And I do think there are places 
where you can locate a biomass facility such as in the South 
Lake Tahoe area right off of Highway 50 there. There is space. 
It does provide jobs for people. I think the question is a 
system that makes some sense economically that can be set up 
and perhaps you could do that. I mean, I think that would be a 
great contribution to getting some of the dead, dying, and 
downed stuff out that is going to really fuel another forest 
fire of major proportions.
    Mr. Tidwell. Yes. That is one of the things I know that the 
basin is working on with one of the counties to see if there is 
interest in maybe building a new facility that is scaled 
appropriately for the amount of material that we need to 
remove, not only in the basin but maybe from one or two of the 
adjacent national forests too.
    Senator Feinstein. The thing is that you do not have to 
take the stuff over the mountains, which you do when you leave 
the lake proper area. It is all surrounded. So you have got to 
go up and then down with it to Placerville or someplace like 
that, and that is a distance and it is a hard pull. So you 
really need to do something, I think, in the basin itself.
    Anyway, that is my view. It is, I think, of significant 
importance. We have just submitted the second Lake Tahoe 
restoration plan, and it is really the crown jewel because it 
is one of two clear lakes in the world remaining. And a major 
forest fire just will desecrate it. So it is an important thing 
to do.
    Mr. Tidwell. Madam Chairman, I want to also thank you for 
your support over the years for the Lake Tahoe Basin. We are 
making a difference there not only reducing the sediment that 
in the past has gone into the lake, but also making a 
difference in reducing the threat of large fires. Even with the 
Angora fire, we had situations there when that fire did burn 
into treated areas, that the suppression crews were able to get 
in there----
    Senator Feinstein. No question. You are absolutely right.
    Mr. Tidwell [continuing]. And they were effective.
    Senator Feinstein. No question. So it did work. I mean, we 
know that forest management works if we do it. The question is 
to do enough of it. So I thank you very much for that and 
appreciate it.
    Senator Tester.
    Senator Tester. Yes, thank you, Chairman Feinstein.
    Senator Feinstein. Montana comes to life.
    Senator Tester. Ah, yes.
    Senator Feinstein. Not that we are going to be parochial, 
but we will in my case.

       INTEGRATED RESOURCE RESTORATION LINE ITEM--ACCOUNTABILITY

    Senator Tester. Thank you for being here, Tom. I really 
appreciate the work you have done in Region 1 previous to this 
job, and I appreciate your vision here in the position you 
have.
    Secretary Vilsack has a new vision for the USFS. In Montana 
just a few days ago, the Secretary talked about how a bill that 
I happen to have, the Forest Jobs and Recreation Act, provides 
the tools the USFS needs to achieve that goal. He and I both 
believe, as I think the chairwoman does, that timber production 
and restoration are tools to create and save jobs in our rural 
communities and ultimately save those rural communities. I can 
see this vision in this budget.
    Unfortunately, what I do not see in the budget is the 
accountability to manage the money. For example, in my bill 
there is a mandate to make sure that the work on the ground is 
completed and that it is done at a time certain.
    What is the USFS doing to make sure that the funds are 
accounted for and spent wisely and restoration, timber harvest, 
and watershed management are all still completed in this new 
budget?
    Mr. Tidwell. Well, Senator, thank you for the question, and 
also I want to thank you for your leadership and your support 
for us to be able to do more restoration work on the landscape, 
to provide more jobs, and also with your legislation, to add 
additional areas to the wilderness preservation system. I want 
to thank you for that leadership.
    Also, thank you for that question. With our budget 
justification, we do plan to provide additional information to 
the subcommittee that will not only show the number of acres 
that will be restored with this budget request and the number 
of watersheds that will be improved, but also we will provide 
you with a list of all the other outputs that will be 
accomplished through this work. That will include in excess of 
2.4 billion board feet of timber sold, the number of acres of 
wildlife habitat that will be improved, the number of miles of 
fishery streams improved, and the number of acres of noxious 
weeds treated. We want to be able to show you that by restoring 
the number of acres that we are proposing with this budget 
request, that it equals this set of accomplishments. We want to 
be able to show you that there is a direct connection so that 
we can be held accountable for not only improving the overall 
watershed conditions, but also to be accountable for this set 
of outputs. That is very important that we are able to provide 
those.
    So, I look forward to being able to bring that up and sit 
down with you and the staff and work with the subcommittee to 
address your concerns. I recognize that is missing in our 
budget request, and we need to get that up to you so you can 
see that.
    Senator Tester. I appreciate that.
    I guess the next question would be, to follow up, is how 
often do you plan on giving the subcommittee the kind of 
analysis that you just spoke of?
    Mr. Tidwell. Well, we will continue to work with the 
subcommittee to address your concerns. Throughout the year, we 
are more than glad to come up at any time to be able to show 
the progress that we have been making on accomplishments. I 
would like to reference what we were able to do in 2009. If you 
look at 2009, it was probably the toughest market that we have 
had with the timber and integrated wood products industries. 
However, we were still able to accomplish close to 97 percent 
of our timber target in 2009. We also exceeded our wildlife 
improvement targets and our hazardous fuel improvement targets.
    Senator Tester. We appreciate that work. And quite 
honestly, I appreciate your openness about getting the 
information to us so that we know as appropriators that the 
money is being spent wisely and efficiently.

                        STEWARDSHIP CONTRACTING

    In November 2008, the Government Accountability Office 
produced a report about the use of stewardship contracting in 
the agency. That report recommended three things: better plans 
for long-term stewardship contracting, better collection of 
data about stewardship contracts, and improved accounting for 
services received for products sold.
    What is the agency doing about addressing those management 
goals?
    Mr. Tidwell. First, we have changed our accounting system 
so we are now able to track the outputs for stewardship 
contracts and also the revenues and the cost of that work. We 
will now be able to include that in our automated timber sale 
statement of accounting. Each year we will be able to produce 
that report that will show all the accomplishments.
    We have also provided a stewardship agreement template that 
we can use across the country so that every region and every 
forest is using a consistent stewardship agreement.
    We are also in the process of completing a new stewardship 
contract that I refer to as a blended contract. In the past, we 
have had two contracts, one was an integrated timber sale 
contract and one was a service contract, and we had to chose at 
the start of the project which way to go with that. This new 
contract combines them so that we are able to use the same 
contract and not have to be worried so much about the market 
conditions. I believe that will help facilitate the work. It 
will make it easier not only for our employees, but definitely 
for our purchasers. I believe that will be a significant 
improvement and will help us to move forward and use this 
authority more.
    Senator Tester. Okay. Well, thank you, Chief Tidwell.
    Madam Chair, I have got to slip out for a bit. If the 
hearing is still going on, I will come back, but if it is not, 
we will submit the questions in writing.

                           SUNRISE POWERLINK

    Senator Feinstein. Good. Thank you very much, Senator.
    I wanted to ask questions, if I may, regarding the Sunrise 
Powerlink in California. This is really a very big deal. San 
Diego Gas and Electric has sent a letter to Secretary Vilsack. 
They are cautiously optimistic the forest supervisor will not 
require further environmental review of and beyond the multi-
year review by the Bureau of Land Management (BLM) and 
California Public Utilities Commission.
    The governor has called Secretary Vilsack twice and the 
White House once in order to try to get the USFS to act on the 
project. The Imperial County Board of Supervisors has written a 
letter, which is here, to Secretary Vilsack requesting issuance 
of the record of decision stressing that the county has 27 
percent unemployment and this is a big employment facility. The 
Imperial Valley Economic Development Corporation is hosting a 
renewable energy summit, and there is expected to be 
considerable frustration that Federal permitting stands in the 
way of economic recovery.
    The record of decision would enable construction of a $1.7 
billion power line that would put 400 to 500 people to work.
    I can give you all the correspondence on this, if you would 
like.
    But here there are two infrastructure projects which await 
USFS decisions. One is the Tehachapi transmission line from the 
Tehachapi wind resource area into Los Angeles County, and the 
second is the Sunrise Powerlink from Imperial County to San 
Diego. Both have their State permits and have had the other 
Federal permits for more than a year. After all these years of 
permitting, both await only the USFS.
    So here is the question. Would you give priority to the 
permitting needs? Now, this is a privately funded 
infrastructure project to essentially help us obtain the job 
goals.
    And the second is, by what date can you assure me that the 
USFS will complete its review of both the Tehachapi and Sunrise 
transmission lines, which are in an area identified by the 
Department of Energy (DOE) as national interest electric 
transmission corridor lines?
    It is a big deal in southern California, and the only thing 
awaiting its go-ahead is actually you. So you have a chance to 
really break this gridlock and move these two projects along. 
How do you feel?
    Senator Feinstein. That is meant to be heat.
    Mr. Tidwell. Madam Chairman, I can assure you that both of 
these projects are a priority for us. We recognize how 
important it is for us to get our part of the analysis done.
    On the Tehachapi, it is my understanding that the company 
is moving forward and that they realize it is going to take a 
little more time for us to finish our analysis and our section 
7 consultation. It is my understanding that they are okay if it 
takes a little more time for us to finish that analysis.
    On the Sunrise, I understand that is a more urgent need for 
us to complete our analysis. We are looking at the analysis 
that was completed by the BLM for this project and we are 
evaluating that to see if it does cover all the issues that 
have been raised about having a line placed on the Cleveland 
National Forest. Based on that analysis, we will let you know 
if we feel we can go forward and use the existing analysis or 
if we need to supplement that.
    As far as a date, I will need to get back to you and 
provide you a specific date when we will have this 
accomplished.
    Senator Feinstein. Yes. If you would give me a specific 
date, I would appreciate it.
    [The information follows:]

    As of April 15, 2010, the Forest Service is finalizing review of 
existing environmental analysis documentation on Sunrise Powerlink, and 
anticipates making a determination within a couple of weeks on next 
steps.

                           SUNRISE POWERLINK

    Senator Feinstein. Let me just read one part of the letter 
from the chief operating officer of San Diego Gas and Electric.

    ``The delays associated with the unprecedented level of 
review of Sunrise jeopardize the timely completion of a crucial 
energy infrastructure project for southern California in an 
area that has been identified by the Federal Government as 
having critical and persistent electricity congestion.
    ``Sunrise is located within a designated transmission 
corridor on BLM and USFS lands pursuant to the Energy Policy 
Act of 2005. Its location will not only help modernize the grid 
in this congested region and increase reliable electric service 
to consumers, it will also do so while facilitating the 
development of renewable energy at a lower cost to consumers.
    ``Additionally, at a time when spurring economic 
development has become critically important, Sunrise would 
directly inject nearly $2 billion into the economy and create 
over 400 green jobs with potentially thousands more that would 
be employed in constructing the wind, solar, and geothermal 
energy facilities that will benefit from this new line.''

    So as you can see, this is really a mega-project for us in 
that it then produces what is necessary for the wind and solar 
energy to transmit. So the longer you guys hold it up, the less 
renewables we have in an area that is a heavy consumer of 
electricity.
    Mr. Tidwell. Well, Madam Chairman, I will follow up with 
the region later this week in fact. I am going to be down in 
southern California, and I will follow up. Based on that letter 
you have just shared, that is some different information than 
what I have been shared.
    Senator Feinstein. Can I give you this?
    Mr. Tidwell. I would appreciate that.
    Senator Feinstein. It has, I think, all the notes. It has 
got the San Diego letter. It has got the Board of Supervisors. 
I think it has what you need to understand the alacrity with 
which people are looking at this. And as far as I know, there 
is no opposition, which is unusual.
    Mr. Tidwell. That is also encouraging. Based on my inbox, I 
have received quite a few emails from folks that actually are 
concerned about the project, which is often the case.
    Senator Feinstein. Well, could you tell me the nature of 
the concern? You know, in California, you get a suit over 
almost anything.
    Mr. Tidwell. Yes.
    [The information follows:]

    The comments received in the Chief's e-mail inbox in relation to 
the Sunrise Powerlink have been almost unanimously against the project. 
As of March 30, 2010, the Chief has received only one comment in favor 
of the project. In addition to these e-mails, public meetings on the 
project have generated attendance in the hundreds, with overwhelming 
opposition being voiced. Many of the concerns expressed in the e-mails 
are centered around health issues, viewscapes, and impacts to wildlife. 
There are also concerns about the fire danger the Powerlink may pose. 
There is concern about the fact that there is only one road in and out 
of the El Monte Valley, which would lead to difficulty fighting fires 
that might result from the Powerlink. Additionally, some people believe 
there are better and safer ways for power to be generated in the area, 
or that this is really not a renewable energy project at all, and that 
it will, in fact, be linked to unregulated fossil-fuel energy from 
Mexico, causing enhanced pollution in southern California. There have 
been concerns expressed about the ``greed'' of Sempra, and that the 
company should not be allowed to market itself as ``green'' when it 
really is not. This is based on Sempra's refusal to abide by a written 
agreement guaranteeing it would carry only renewable energy. Hang 
gliding and paragliding enthusiasts oppose the project because of the 
danger the lines pose to people who enjoy their sport. Additional 
concerns pertain to increased vehicle traffic and removal of live oak 
trees that some people believe will be cut down for the project.

    Senator Feinstein. But we have to find out what is the 
public good and move with the public good. And renewable power 
because I do not think there are any flora or fauna or real 
environmental problems that I know of, and my staff, I think, 
has looked at this rather carefully. So I think it is unlike 
other areas where you do it in the middle of desert tortoise 
habitat or bighorn sheep or something like that.
    Mr. Tidwell. Well, we will review the analysis, and if it 
is adequate to address the concerns, we will be able to move 
forward. If we do need to do a supplemental analysis, we will 
let you know.
    The last thing that I would want us to do is----
    Senator Feinstein. Could I just say one other thing? My 
staff handed me this note, just so you know. There is local 
opposition by NIMBY groups fully considered and dismissed by 
BLM and the California Public Utilities Commission. So I mean, 
you have to bear that in mind.
    Mr. Tidwell. Yes.
    Senator Feinstein. If we are going to get this done, we 
need to do it.
    Mr. Tidwell. Yes.
    Senator Feinstein. You were going to say something?
    Mr. Tidwell. Well, the last thing we would want to do is go 
forward with a decision that lacked adequate analysis and thus 
we find ourselves in court. I would much rather make sure we 
have the adequate level of analysis so that we can implement 
the project. That is one of the things we will be looking at. 
We will take a very careful look at it, and either way we will 
do everything we can to expedite this.
    Senator Feinstein. Thank you very much. Appreciate it.
    Senator Alexander.

                         ENERGY CORRIDOR SITING

    Senator Alexander. Thank you, Madam Chairman.
    I wanted to move to ask about invasive species, but I 
enjoyed listening to Senator Feinstein. The problem with 
renewable energy for this country is the one of scale. For 
example, if we were to have 20 percent of our electricity from 
wind, we would have to build 19,000 miles of transmission 
lines, and where will those transmission lines go? Well, the 
easiest place to put them is not through somebody's suburban 
backyard, but through the national forests or some conservation 
easement land that we worked for 50 or 60 years to protect.
    So I know that, on the one hand, the need for energy is 
going to cause the DOE to say, well, here is a national 
transportation corridor we want Congress to approve. But I 
think at the same time we need to have the countervailing 
policy from the USFS and the national parks to say, but wait a 
minute, we have got some treasured landscapes that we want to 
protect and we do not want to just override that for a little 
bit of intermittent wind power or even intermittent solar power 
for an area as large as southern California.
    I know nothing about this project and have no comment on 
it, but it illustrates the need for a good, rational policy for 
what is basically a new phenomenon in our country. We did not 
really have these issues to consider 20 years ago.
    Senator Feinstein. Would you yield for 1 second?
    Senator Alexander. Oh, I will yield for more than 1 second.
    Senator Feinstein. How dare you to see a more difficult 
permit process than the State of California has anywhere. It 
goes on and on and on. And I guess my point is it has made its 
way through every permit process, every evaluation. That is 
pretty good because it does not happen many times.
    Senator Alexander. No. But it is possible today--let me 
just move it to the East--for someone to come build a--get a 
bunch of Federal subsidies and build a big wind park right 
outside the Cherokee National Forest in east Tennessee and then 
say, okay, we want to run the transmission lines through the 
national forest to get to Knoxville when it is a puny amount of 
power that only works one-third of the time and we would not 
want our vistas destroyed. We would not have thought of that 
before.
    So I do not have any comment on the southern California 
issue. I am just saying that the chairman and I both would like 
to introduce into the discussion the larger issue of how we 
deal with renewable energy sprawl as it deals with deserts, 
national forests, national parks.

                            INVASIVE SPECIES

    But if I may, I would like for you to say something about 
invasive species and what you are doing about that. That is a 
big problem for us. The Great Smoky Mountains, for example, and 
the Cherokee National Forest have more species of trees, for 
example, than Europe, but we are about to lose all of the 
hemlock trees. The gypsy moths have penetrated our whole 
region. Our University of Tennessee is trying to do some 
research work in the area, and we have some on-the-ground ways. 
I have been there myself to see if you put beetles to try to 
deal with the woolly adelgids that are destroying that are 
destroying the hemlock trees. Your budget is cut for on-the-
ground treatments and research, I am told.
    So what is your attitude about priority for invasive 
species and research to try to find better ways to deal with 
that?
    Mr. Tidwell. Well, Senator, thank you for the question.
    When it comes to invasives, we approach it both through our 
research and also through management. We continue to need to be 
able to do the research. As you mentioned, with this predator 
beetle on the hemlock woolly adelgid, it does show promise as 
potentially a control for the adelgid, and it is one of the 
things that our research scientists have been working on. We 
also want to continue to look for other ways to suppress the 
adelgid, and it is essential that we are able to continue our 
research.
    But, at the same time, it is also essential for us to then 
have management to see if there are some things that we can do 
out on the landscape that will help slow down this spread and 
increase the resistance of the hemlocks to this adelgid. So 
that is how our research and management work together.
    We also work very closely with universities with our 
research and then also the States. Our State foresters are a 
key partner as we address invasives. It is a perfect example of 
this all-lands approach; invasives do not care. They do not pay 
attention to the boundary on the map or the property ownership. 
They are going to go wherever the host is. It is essential that 
we work together with the private landowners and also with the 
national forests as we take on these issues, so we can find a 
solution across the entire landscape.
    Senator Alexander. I would simply like to encourage you to, 
wherever appropriate, work in partnership with universities in 
States like the University of Tennessee or the State of 
Tennessee or other States and universities to maximize our 
bucks on this. You know, 40 years ago, the chestnut was our 
major hardwood tree in the forests of the Eastern United 
States. It is gone. The hemlocks appear to be going unless the 
predator beetle or something else makes a difference.
    Thank you, Madam Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. I thank you very much.
    Mr. Tidwell, let me just say that I think this subcommittee 
is very interested. You are a new Chief. That is always an 
exciting time. I mean, we look forward to your innovations, 
your initiative. We all know that there is a place for that and 
good management, and hopefully the USFS is going to thrive 
under your management and we would like to be as much help to 
you as we can. So please feel very welcome, despite our 
questions, which were actually very mild questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

                    INTEGRATED RESOURCE RESTORATION

    Question. Your budget contains significant restructuring and policy 
changes to the National Forest System (NFS) account, including a 
proposal to merge three existing programs into this new ``Integrated 
Resource Restoration'' program. Why is such a major budget 
restructuring is necessary? Why do you think your current budget 
structure does not allow you to meet your restoration objectives?
    Answer. The Forest Service's (USFS) focus on forest landscape 
restoration is the basis for the proposal to establish the Integrated 
Resource Restoration program by combining the NFS--wildlife and 
fisheries habitat management, forest products, and the vegetation and 
watershed management budget line items (BLIs). In addition, the 
Collaborative Forest Landscape Restoration Fund (CFLRF) previously 
funded under the Wildland Fire Management appropriation is included 
within this BLI because it shares a similar primary purpose to restore 
forest landscapes. The NFS programs and the CFLRF all share similar and 
complementary objectives to sustain and restore aquatic and terrestrial 
ecosystems. Restoration and maintenance of sustainable landscapes and 
watersheds requires a holistic approach and our ability to sustain 
healthy watersheds will be facilitated by having a single BLI. 
Combining the NFS budget line items is clearly a logical grouping that 
enhances the USFS's ability to focus on integration.

                             TIMBER SUPPLY

    Question. I have received a letter from 14 Senators, including a 
number of Senators who serve on this subcommittee, expressing serious 
concern that this budget request creates uncertainty about the 
availability of timber from public lands at a time when communities 
that depend on the forest product industry for jobs can least afford 
it. An adequate and predictable timber supply is critical to maintain 
our existing forest products infrastructure. I am hoping you can 
provide some clarity on exactly how much timber you plan to produce. 
How many board feet of timber do you plan to produce in fiscal year 
2011 with the funding level proposed by your budget?
    Answer. The USFS proposes to sell 2.4 billion board feet of timber 
with the proposed budget in fiscal year 2011.
    Question. If we provide the USFS flexibility to spend your funding 
on multiple restoration objectives, how can we be certain you will 
actually produce that amount?
    Answer. As identified in the budget justification, given the budget 
proposed, the USFS intends our resource management and restoration 
activities to generate a sale volume of 2.4 billion board feet. The 
USFS will continue to track and report on our volume accomplishments. 
Stewardship contracts and agreements will be USFS's primary means of 
managing natural resources; this includes a focus on existing, new, and 
emerging markets for wood removal and utilization. These tools provide 
the USFS with the ability to exchange the value of the timber (goods) 
for the cost of services, such as the nontimber harvest activities. 
They also allow the USFS to supplement the value of the timber with 
appropriated funding or retained receipts as necessary to accomplish 
the specified nontimber harvest work.

                        STEWARDSHIP CONTRACTING

    Question. The success of your proposed restoration initiative 
relies heavily on the use of stewardship contracting authorities. 
However, even though stewardship contracting authorities have existed 
for more than a decade, the USFS has not made widespread use of them. 
You treated 88,000 acres in 2009 using these contracts, and I 
understand that you plan to treat 121,000 acres this year. Yet your 
fiscal year 2011 budget sets a target of restoring 600,000 acres using 
stewardship contracts--a five-fold increase. How can we be confident 
that you will be able to meet this aggressive target? What specific 
steps do you plan to take to implement such a large increase in the use 
of these contracts?
    Answer. The USFS already has 10 years of experience in successfully 
implementing stewardship end-results contracts. During this 10-year 
period, our partners, cooperators, and employees have gained 
considerable experience and have overcome numerous obstacles. To expand 
the use of stewardship end-results contracting, we are finalizing the 
development of a simplified single contract instrument. This contract 
will focus on achieving the end results identified through the 
collaborative process, facilitate best-value contracting, and protect 
the interests of our stakeholders and the Government. Utilizing this 
contract of choice, as another tool to implement stewardship end-
results contracting, the USFS will have an increased capacity to 
accomplish more good work for national forests.

                    INTEGRATED RESOURCE RESTORATION

    Question. Within your new Integrated Resource Restoration program, 
you propose $50 million for a ``Priority Watersheds and Job 
Stabilization'' initiative to fund a number of long-term stewardship 
contracts to improve watershed health and create jobs. How do you plan 
to select projects under this initiative, and how many projects do you 
expect to fund in 2011?
    Answer. Selection criteria will be based, in part, on needs and 
opportunities associated with restoration, partnerships, public use, 
and ecological significance. Watersheds will be funded in a variety of 
areas across the country but the number of projects will not be known 
until proposals are evaluated and project selection is made. Priorities 
will be informed by identification in the State forest assessments, 
watershed condition, costs, and input from local communities.
    The watersheds identified as most important to the public will be 
brought forward for a more comprehensive evaluation. Proposed projects 
will be evaluated through a national prioritization process with final 
selections by the Chief of the USFS. Selection of biomass projects will 
favor proposals that are coordinated with other Federal and State land 
management agencies, as well as tribes; accomplish management 
objectives with regard to forest function and health; create jobs or 
contribute to job stability; and create or maintain traditional forest 
products or biomass/renewable energy development. Nontimber, forest 
jobs will be prioritized using the proportion of non-Federal matching 
funds and the number of jobs for youth that will be generated. Creating 
job opportunities for youth in rural areas will be an important 
component of this initiative.

                          BIOMASS UTILIZATION

    Question. Your budget request states that you will conduct an USFS-
wide biomass assessment to help prioritize and support the development 
of biomass utilization facilities. I've been very concerned about the 
lack of biomass infrastructure in areas like the Lake Tahoe basin, 
where the cost of transporting biomass can be prohibitive and the USFS 
is still forced to depend on piling and burning to dispose of much of 
its forest waste. How will your budget proposal specifically increase 
biomass utilization?
    Answer. One of the underlying concerns in the development of a 
woody biomass utilization facility is assuring a reliable and 
predictable supply of biomass. Any investment in infrastructure will 
require a long-term supply of raw material (excess woody biomass). 
Instead of piling and burning of this excess biomass, the USFS-wide 
biomass assessment identified in the fiscal year 2011 budget 
justification will help to prioritize and support the development of 
bio-energy facilities and other biomass utilization facilities.
    One example includes the Kings Beach area of North Lake Tahoe, 
California, where the USFS is currently working with Placer County to 
establish a 3-megawatt combined heat and power facility. Woody biomass 
comes from forest health restoration projects on the Lake Tahoe Basin 
Management Unit. The project used one of the biomass assessment tools, 
the coordinated resource offering protocol (CROP) study, to assess the 
availability of woody biomass in the next 5 years. The project is 
moving forward at this time.
    The USFS is integrating biomass utilization efforts with partners 
(Departments of the Interior, Energy, Defense, and Commerce, as well as 
USDA and EPA), including implementing new fiscal year 2008 farm bill 
authorities such as the Biomass Crop Assistance Program, and 
coordinating with communities, State foresters, and tribes. The EPA is 
working directly with the Department of Energy on 49 new bioenergy 
facilities to pilot and demonstrate wood-to-energy technologies.
    In fiscal year 2011, $20 million is targeted to farm bill programs 
that encourage market development for biomass materials removed from 
the wildland-urban interface (WUI). The Forest Biomass for Energy 
Program (section 9012), administered by USFS research and development, 
is funded at $15 million, and the Community Wood Energy Program 
(section 9013) is funded at $5 million. Since 2005, the USFS awarded a 
total of $24.5 million (98 grants) to help improve NFS hazardous fuel 
reduction activities.
    In addition, the USFShas identified 20 CROP study areas capable of 
providing a sustainable woody biomass resource. The USFS will continue 
to expand on the number of CROP study areas, and to provide available 
biomass information for these study areas to potential investors.

             COLLABORATIVE FOREST LANDSCAPE RESTORATION ACT

    Question. The subcommittee provided $10 million to begin funding 
Restoration Act projects this year and asked you as part of the fiscal 
year 2010 Interior Appropriations Act to provide a list of projects you 
plant to fund by March 1. Unfortunately, we have not yet received that 
list from you. When do you expect to have this year's projects 
selected? What criteria will be used to choose the final recipients?
    Answer. The Omnibus Public Land Management Act of 2009 requires 
proposals to be reviewed and recommendation for selection made by an 
advisory panel. The advisory panel is subject to the Federal Advisory 
Committee Act (FACA). The FACA process is fairly lengthy, but the 
notice of intent to establish the Collaborative Forest Landscape 
Restoration (CFLR) Advisory Committee and call for nominations was 
published in the Federal Register on February 26, 2010. Committee 
member selection is anticipated no later than April 30, 2010. Upon 
selection of prospective committee members, a background check for each 
will require approximately 3 weeks to complete. The USFS anticipates 
that the CFLR Advisory Committee will be in place by June 2010 and is 
currently soliciting CFLR proposals from the field.
    The request for proposals, sent to the regional foresters on 
February 24, provides guidance to ensure that the proposals are 
responsive to CFLR requirements and are organized to allow efficient 
evaluation by the CFLR Advisory Committee. Proposals are due May 14, 
2010 and projects will be selected in July 2010. The following 
criteria, as required in the Omnibus Public Land Management Act of 2009 
will be used in the selection: the strength of the proposal and 
strategy; the strength of the ecological rationale; the strength of the 
collaborative process; the ability to reduce long-term wildfire 
management costs; the ability to reduce costs through the use of woody 
biomass; and, the ability to leverage non-Federal investments. The CFLR 
Advisory Committee may add additional criteria.

                       QUINCY LIBRARY GROUP (QLG)

    Question. I understand that there has been some confusion regarding 
how much the USFS plans to spend to implement QLG activities in fiscal 
year 2010. Could you please confirm for me exactly how much you plan to 
spend this year on QLG projects?
    Answer. The USFS has allocated $26.2 million for QLG activities in 
fiscal year 2010.
    Question. How much is in your budget for QLG projects for fiscal 
year 2011? Can you assure me that the funding for QLG is not going to 
get cut, given the proposed changes to your restoration budget?
    Answer. The USFS does not propose any reductions for QLG. The 
fiscal year 2011 budget request includes $26.2 million for QLG 
projects, the same level as fiscal year 2010.
    Question. I have been very concerned that the USFS continues to be 
unable to meet the 40,000-to-60,000-acre annual treatment target set by 
the legislation authorizing QLG. Last year at this hearing I discussed 
these targets with Chief Kimbell. She testified that the USFS planned 
to treat approximately 18,000 acres in 2009 and 20,000 acres in 2010. 
Did the USFS meet your 2009 acreage target?
    Answer. No, the USFS treated 14,370 acres in fiscal year 2009. 
Appeals and litigation have greatly reduced the ability to implement 
the pilot project, which, along with the economy, has resulted in the 
project area losing forest product industries. The Sierra Pacific 
recently closed their QLG small log sawmill. The USFS plans to treat 
25,476 acres in fiscal year 2010.
    Question. How many acres do you plan to treat in the QLG area in 
2011?
    Answer. The USFS plans to treat more than 21,000 acres in fiscal 
year 2011.
    federal land assistance, management and enhancement (flame) act
    Question. Last year the subcommittee enacted the FLAME Act of 2009, 
which required a number of firefighting budget and accountability 
reforms. As you know, one of the major changes under this new law was 
the creation of a $413 million appropriations account, the FLAME Fund, 
to fund large wildfire incidents this year. I understand the USFS has 
been working your Department to set up this new account. How will the 
USFS ensure that the FLAME Fund is up and running so that funding will 
be seamlessly available to the field for firefighting needs this year?
    Answer. The USFS is confident that implementation of the FLAME Fund 
will be seamless and not affect the availability of funds for 
firefighting needs. All fire expenditures will be made out of the 
wildfire suppression account, which current has sufficient funds to 
carry the USFS through most of the existing fiscal year due to 
carryover funding from last year and depending on the severity of this 
year's fire season. We are finalizing our procedures for implementation 
of the FLAME Fund.
    The FLAME Act funds will be available to the Secretary of 
Agriculture to be transferred into the suppression account when the 
suppression account is nearly exhausted and/or certain objective 
criteria are met.
    The fund will help address the challenges of budgeting for fire 
suppression and enable the USFS to respond effectively during highly 
variable fire seasons.
    Question. I'm pleased that you've provided $1.2 billion for fire 
suppression appropriations, including $595 million for base fire 
suppression programs and $291 million to continue the FLAME Fund in 
2011. However, I'm concerned you've also created additional bureaucracy 
by adding on a third fund, the Presidential Wildland Fire Contingency 
Reserve Fund, on top of your two other firefighting appropriations. Why 
do you need three separate firefighting appropriations? Why is it 
necessary to create this Contingent Reserve Fund?
    Answer. The Presidential Wildland Fire Contingency Reserve Fund 
will help address the challenges of annual budgeting for changeable 
fire suppression needs and enable the USFS to respond effectively 
during highly variable fire seasons. Upon forecast of FLAME fund 
depletion, a Presidential declaration can authorize transfer of funds 
from the Presidential Contingency Fund. A Presidential declaration for 
use of these funds is to be based on an analysis of risk decisions made 
for type 1 and 2 fires. An approved Presidential declaration, in 
effect, indicates that the USFS is worthy of accessing this fund due to 
effective and accountable operations.
    This special contingency account will provide a backstop for the 
unpredictability of fire seasons and ensure that other key USFS 
programs are not disrupted if fire transfer would otherwise have to be 
employed to meet firefighting funding needs in years of above average 
fire activity/costs.

                            HAZARDOUS FUELS

    Question. Your budget proposes $349 million for hazardous fuels 
reduction, roughly equal to the level provided by Congress for this 
fiscal year. Within that amount, you propose a number of changes to 
your program of work, including an increased emphasis on treating acres 
in the WUI and $20 million to fund two new biomass utilization grant 
programs. How many acres do you plan to treat in 2011, and how you will 
select those acres?
    Answer. The USFS proposes treating 1.6 million acres in fiscal year 
2011. The USFS will focus on treating the more expensive high-priority 
wildland urban interface treatment acres and areas that have completed 
a Community Wildfire Protection Plan or an equivalent plan.

                          BIOMASS UTILIZATION

    Question. How these new biomass utilization grants would be used? 
Why do you think funding for these grants is a better investment than 
funding additional fuels reduction work on the ground?
    Answer. As part of title IX of the 2008 farm bill, 2 new biomass 
grant programs were established. The Community Wood Energy Program 
(section 9013, Public Law 110-246) creates a new program to support 
State, Tribal, and local governments in developing community wood 
energy plans and to acquire or upgrade wood energy systems for public 
facilities. Eligible public facilities are those owned or operated by 
State or local governments which use woody biomass as the primary fuel 
which have or could install single facility central heating, district 
heating, combined heat and energy systems, and other related biomass 
energy systems.
    To ensure wood energy systems match the available fuel supply a 
community wood energy plan will be required before program funds are 
used to acquire equipment. Support will be for systems that are smaller 
than 5 million Btu per hour heating and/or 2 megawatts for electric 
power production as directed by statute. The plans will be required to 
address potential air quality impacts of the proposed systems and 
compliance with applicable air quality rules and performance standards. 
State foresters and many other groups interested in forest health, 
hazardous fuels reduction, and renewable energy have expressed interest 
in supporting and participating in this new program.
    The Forest Biomass for Energy Program (section 9012, Public Law 
110-246) will be a research and development program to encourage use of 
forest biomass for energy. The grant program priorities are fully in 
line with the bioenergy and bio-based products research and development 
program. The creation of a sustainable bioindustry producing biofuels 
and bioproducts on a significant scale is critically dependent on 
having a large, sustainable supply of biomass with appropriate 
characteristics at a reasonable cost; cost-effective and efficient 
processes for converting wood to biofuels, chemicals, and other high-
value products; and useful tools for decision-making and policy 
analysis. If the program is funded, Forest Service Research & 
Development will administer grants.
    Energy security, development of renewable energy, combating global 
climate change, and wildfire risk reduction are national priorities, 
and the utilization of woody biomass plays a role in each, as well as 
in the management of long-term forest health. Energy from biomass has 
the potential to contribute significantly to meeting the Nation's goals 
for domestic energy production and reducing carbon emissions. There is 
a national desire to ensure that expansion of wood-based bioenergy does 
not result in negative consequences like forest degradation and loss of 
ecosystem services. USFS has also raised significant concerns and 
challenge regarding the air quality impacts of small wood fired boilers 
and heaters. Issues of sustainability include overall quantities of 
biomass that can be produced without negative impacts, effects at both 
the landscape scale (e.g., overall land use change) and site scale 
(local impacts from harvest or facility development).
    The new biomass programs can help the USFS and partners address 
issues of scale, environmental impacts, social acceptance, public lands 
management, and rural economic development. The new grants, as well as 
the continuation of the Woody Biomass Utilization Grant Program, will 
continue to link benefits to NFS forest health, watershed, and habitat 
objectives as well as achieve sustainable, biomass utilization to the 
States and local communities.

                               AIRTANKERS

    Question. At this hearing last year I expressed serious concern 
about the declining number of firefighting air tankers available to the 
USFS. Since 2002, you have lost almost 60 percent of your fleet to 
safety and maintenance issues. Your own Inspector General confirmed in 
a July 2009 report that your remaining 19 aircraft will start reaching 
the end of their service life in 2012. This subcommittee asked the USFS 
to present an aviation strategy that lays out a plan to address your 
air tanker shortage as part of our 2010 Interior bill. Nearly 5 months 
have passed since we asked for this plan and we have still not heard 
how the USFS intends to respond. When will the USFS share its 
recommendations with the subcommittee for upgrading its air tanker 
fleet?
    Answer. The USFS recognizes the need for an overall airtanker 
strategy to plan for a future airtanker fleet and will work closely 
with the subcommittee to develop an acceptable strategy to deal with 
the rapidly aging airtanker fleet. The USFS and our interagency 
partners are also working on the cohesive strategy, as directed by the 
Congress, which will provide strategic insights for balancing wildland 
fire response, fire-adapted human communities, and landscape 
restoration.

                              STATION FIRE

    Question. Last August, the Station Fire destroyed 160,000 acres in 
the biggest fire event in the history of Los Angeles. At the time there 
were many questions raised about the appropriateness of the USFS's 
response. Some still believe that these questions have not been 
answered. Did the USFS's incident commanders call for firefighting 
airplanes on initial attack? And were they fully utilized?
    Answer. Yes, the USFSdid order and use a full complement of 
aircraft for initial attack on the Station Fire. Air resources 
mobilized on the first day of the fire included two air tankers, seven 
helicopters, one lead plane and two air attack planes. The lead and air 
attack planes are used to manage air traffic over the fire and 
coordinate with firefighters on the ground.
    Air resources on the second day of the Station Fire included six 
air tankers, seven helicopters, two lead planes, and three air attack 
planes. Aircraft were provided through USFS contracts, and Los Angeles 
County and Los Angeles City cooperating agreements. These aircraft were 
part of an aggressive initial response to the Station Fire which also 
included 13 fire engines, 9, 20-person hand crews, 3 water tenders, and 
2 patrol units.
    After the Station Fire, USFS Chief Thomas Tidwell commissioned a 
review of the initial suppression actions (first 48 hours). A panel 
consisting of members from the USFS, the Los Angeles County Fire 
Department and the California Department of Forestry and Fire 
Protection (CAL FIRE released a report on November 13, 2009 concluding 
that incident managers from the Angeles National Forest acted in 
accordance with accepted wildland firefighting practices. It determined 
that fire mangers had clear intent from their leader and that they 
deployed fire suppression resources only in those conditions where they 
would be safe and effective.
    Question. In the wake of the Station Fire, State and local 
officials have expressed concern that USFS firefighting policy is not 
as aggressive as it could be. This sentiment is best expressed in a 
letter I received from the Los Angeles County Board of Supervisors, 
that notes ``U.S. Forest Service fire suppression policies limit . . . 
the use of State and local government personnel, equipment and aircraft 
for early attack and suppression of fires within the Angeles National 
Forest.'' Local officials believe that current USFS policy is allowing 
fires to burn from Federal lands onto their jurisdictions, and they 
believe that these policies must be changed. Can you please tell us how 
the USFS plans to work with State and local fire departments to ensure 
that all available resources are utilized in the most aggressive manner 
possible to keep fires from burning into heavily populated areas?
    Answer. The Pacific Southwest Region has a strong track record of 
working with cooperators on aggressive Initial Attack and often 
establishes joint or unified command on fires.
    The USFS did not hold back any firefighting resources in fighting 
the Station Fire. In fact, resources not immediately being used on the 
nearby Morris Fire were rerouted to assist in suppression efforts on 
the Station Fire.
    In October 2009, Chief Tidwell commissioned a review of the initial 
suppression actions (first 48 hours) on the Station Fire. The resulting 
report in question 17 was released on November 13, 2009 and is 
available on the USFS homepage at www.fs.fed.us.
    This report includes assessments of several key factors such as 
topography, weather, vegetative (``fuel'') conditions, and threats to 
both communities and natural resources. It does, in fact, also discuss 
decisions made on the ground by fire commanders and what the impacts of 
those decisions were in suppressing the Station Fire. There have been 
no changes in operating protocol as a result of the findings of the 
Station Fire Initial Attack Review.

                           NIGHT-TIME FLYING

    Question. Night-time aerial firefighting operations have the 
potential to double the amount of time that full-fledged fire 
suppression activities can take place. Several jurisdictions in 
California, including Los Angeles County and the city of San Diego, 
have authorized, equipped and trained their fire aviation fleets to 
operate at night and other low visibility conditions. While I 
understand that the USFS is reviewing the feasibility of flying at 
night, the USFS's official position is that this activity still that is 
too unsafe to authorize. What is the status of your internal review on 
night flying, and when do you expect it to be completed? Will you 
provide the subcommittee with an update once the review has been 
completed?
    Answer. The review of night-time helicopter operations is underway 
and the evaluation is being led by staff at the San Dimas Technology 
Center in California, with support from contractors and NASA. Efforts 
have been focused to understand the mission more completely; review the 
history of the programs, review current programs employed by counties, 
Federal agencies, and the military, reviewing current and emerging 
commercial technology, studying risk associated with night operations, 
integration issues with our existing aviation and ground operations 
program and benefit/cost analysis. The USFS anticipates completing this 
review in fall of 2010 and will provide the subcommittee copies of the 
final report as soon as they are available.
    Question. If you determine that night-time aerial firefighting can 
be done safely, will you provide this subcommittee with an assessment 
of expected costs and potential benefits?
    Answer. Yes.

                         FIREFIGHTER RETENTION

    Question. I have been concerned about firefighter vacancies on 
national forests in California, as well as reports that the USFS has 
had difficulty retaining experienced firefighters because of pay 
disparities and morale issues. As you may know, I supported $28 million 
in prior-year funding to develop and implement retention strategies to 
keep firefighters in Federal service. I understand that the USFS used 
this money to provide a 10 percent retention bonus to certain 
firefighters and used the rest of the money to convert seasonal 
employees to full-time, year-round staff. Have there been improvements 
in firefighter retention in my State since these incentives were 
implemented?
    Answer. Yes, the USFS has seen improvements in firefighter 
retention since the incentives were implemented. The graph ``Permanent 
Firefighter Resignations in Region 5'' displays those improvements.
    The overall attrition rate for calendar year 2009 is below 8 
percent from a high of 13 percent in 2007. The resignation rate dropped 
from a high of more than 7 percent in 2007 to 3 percent in 2009. The 
graph, ``Permanent Firefighter Resignations by Grade in Region 5,'' 
below, demonstrates declines in resignation rates across all grades, 
suggesting that incentives have helped to improve retention rates.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. If so, what percentage of these improvements can be 
attributed to the retention strategies and what percent can be 
attributed other factors, such as State and local hiring freezes?
    Answer. It is difficult to quantitatively determine what portion of 
the employees did not leave as a result of the implementation of the 
retention strategies or because of hiring freezes by State or local 
fire departments. The below table displays the percentage and number of 
the resignation rates attributed to employees leaving to California 
State, county, and local fire departments, pre- and post-retention 
incentives. This information shows a significant decrease in these 
resignations since the retention incentives were implemented.

                  RESIGNATION OF REGION 5 FIREFIGHTERS
------------------------------------------------------------------------
                                              No. of       Percentage of
                                             employees     resignations
------------------------------------------------------------------------
Pre-retention 3/1/08 thru 2/28/09: CA                 44              33
 State, county, and local fire
 departments............................
Pre-retention 3/1/09 thru 2/28/10: CA                  8              19
 State, county, and local fire
 departments............................
                                         -------------------------------
      Change............................             -36             -15
------------------------------------------------------------------------

    Question. How many firefighters will your agency field in 
California this year?
    Answer. The graph ``Permanent Fire Employees in Region 5'' displays 
the history of fire employee populations along with the attrition rate 
for those time periods. The USFS in California has more than 2,100 
permanent fire employees. In April, Region 5 is conducting another 
round of hiring for key permanent firefighting positions GS 06-10. At 
this time the USFS is planning for almost 4,300 permanent, apprentice 
and temporary employees, plus 52 Organized AD and Contract Hand crews 
made up of an additional 1,040 call-when-needed firefighters.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. Can you assure me that the USFS will employ an adequate 
number of experienced firefighters in my State for fire season?
    Answer. Yes. As the previous questions indicate we are doing a 
better job of retaining experienced fire personnel.

                                 ENERGY

    Question. I do not support a first-come, first-serve approach to 
permitting renewable energy development on Federal lands. 
Unfortunately, it appears that the USFS is taking such an approach. I 
believe that the Federal Government should plan the development in a 
manner that is in the best interest of the public. That is why I have 
proposed in the California Desert Protection Act of 2010 that the USFS 
conduct a development planning process, known as a programmatic 
Environmental Impact Statement (EIS), for wind, solar and biomass 
energy. The Bureau of Land Management (BLM) is doing such an EIS to 
bring order to the solar permitting process, after it took development 
applications for years on a first-come, first-serve basis without 
regard to where development belonged. Does the USFS intend to initiate 
a planning process, mirroring that now going on at BLM, to assure that 
renewable energy development on USFS land is consistent, considers the 
public interest, and is focused on the land best suited for this use?
    Answer. Renewable energy production and transmission is an 
important consideration in the comprehensive management of the 193 
million acres NFS land. Early coordination among all interests is a key 
element in properly locating energy production and transmission. Each 
energy resource has unique characteristics guiding its proper location 
within the NFS.
    The USFS and the BLM recently prepared a comprehensive evaluation 
of geothermal energy within BLM and NFS lands. The results of the study 
are used to guide the location of future geothermal energy production. 
The USFS and the Department of Energy's National Renewable Energy 
Laboratory (NREL) completed a 2005 study, Assessing the Potential for 
Renewable Energy on National Forest System Lands, to assess the overall 
potential for such development on NFS land. This report will assist 
forest planners and resource managers in identifying NFS lands that 
have the highest potential for industrial development of wind and solar 
energy.
    To date, requests for the use of NFS land for wind and solar energy 
production have been rather modest, fewer than 15 inquiries in total. 
No solar facilities have been requested and only one wind energy 
facility is under study for authorization. These studies and the 
relatively low interest in wind and solar production on NFS land 
indicate that additional evaluations of these energy sources are not 
appropriate at this time. Should a competitive interest occur, the USFS 
will issue a prospectus, ensuring that the public's best interests are 
addressed (36 CFR 251.58(c)(3)(ii)).
                                 ______
                                 
                Question Submitted by Senator Herb Kohl

                            LAND ACQUISITION

    Question. I understand that the Forest Service (USFS) has recently 
modified its ranking criteria for land acquisition projects. Could you 
tell me a little about that ranking process?
    Please include in your response some specifics on how a project 
might be a top priority one year and not be ranked at all the 
subsequent year. This was the case for a project in my State. Land 
acquisition in the Chequamegon-Nicolet National Forest ranked high in 
the President's fiscal year 2010 budget and received Federal funding 
that year, but didn't make it on the regional priorities list for 
fiscal year 2011, even though it was only partially funded and needs 
additional monies to be completed.
    It is my understanding that projects which received prior-year 
funding, and are not yet completed are usually considered a Department 
priority. Is that no longer the case?
    Answer. The USFS land acquisition list is a national listing of the 
administration's proposed priority acquisitions. The criteria used to 
evaluate and rank projects were based on resource attributes, achieving 
administration conservation objectives, and advancing the goals of the 
USFS's strategic plan. The nine criteria used to evaluate and rank 
projects were: healthy watersheds; wetlands and riparian habitat; 
diverse habitats for threatened and endangered species; adaptation to 
the effects of climate change; conserving forests for landscape 
restoration; recreational uses and improved public access; cultural and 
heritage resources; projects situated within congressionally designated 
areas (e.g., wilderness, wild, and scenic river); and increased 
management efficiency.
    Each region applies the above criteria to projects submitted by 
individual national forests to evaluate and rank projects for 
consideration by a national review panel composed of several 
individuals representing different parts of the USFS. The panel 
considers the regions' ranking, along with other factors, such as a 
region's capacity to complete the acquisition, the level of local 
support for the acquisition, and achieving a national distribution of 
projects across regions and landscapes. The new criteria includes 
consideration of a project's prior-year funding, but past funding is 
not a guarantee that a project would rank sufficiently high to be 
included in the President's budget submission.
    The USFS is reviewing its project ranking and selection process to 
consider revisions for fiscal year 2012 and is aware of the additional 
funding needs for projects where remaining parcels are to be acquired. 
Should the Eastern Region submit a land acquisition project on the 
Chequamegon-Nicolet National Forest for fiscal year 2012, the national 
panel will carefully evaluate it for consideration of funds.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson

                      BLACK HILLS NATIONAL FOREST

    Question. The total planned volume sold in the fiscal year 2011 
President's budget request is 2.716 billion board feet (bbf), down from 
2.909 bbf in the fiscal year 2010 budget request. What effect will a 
reduction in the national program have on the Black Hills National 
Forest? How much additional funding would be required to raise the 
national volume to 3 bbf annually?
    Answer. There is some confusion in the budget justification tables 
that show the sold volume proposed for accomplishment in fiscal year 
2011. The total sold volume for fiscal year 2011, 2,400 million board 
feet (MMBF) shown under the forest products program, is a unified 
accomplishment level. This total is made up of 2,000 MMBF of green 
timber, 250 MMBF of salvage volume, and 150 MMBF in the K-V authority. 
The salvage and K-V volumes are included in the total and thus are not 
additive. Thus, to produce 3,000 MMBF of timber volume sold, 
appropriated funding for an additional 600 MMBF would be needed. It is 
estimated that an additional $92 million would be required to produce 
this volume. The production of this volume is dependent on finalizing 
the National Environmental Protection Act decision on the project and 
the timber market at the time of proposed sale.
    Nationally, in fiscal year 2009, the Forest Service (USFS) sold 
2,508 MMBF and has targeted the sale of approximately 2,546 MMBF in 
fiscal year 2010. The USFS anticipates that the fiscal year 2011 
projected program will result in a reduction on the Black Hills 
National Forest.
    Question. In the fiscal year 2010 budget allocation, Region 2 
received an additional $40 million to address bark beetle epidemics, 
Montana received $20 million to address a bark beetle epidemic, and 
Idaho received $14 million to address a bark beetle epidemic. Those 
funds, while tremendously important and appreciated, are far short of 
what is necessary. The fiscal year 2011 budget is silent on how, or 
whether, to pay for the enormous costs associated with addressing the 
bark beetle epidemics. Does the President's budget request include 
sufficient funding to address the bark beetle epidemics for fiscal year 
2011? If not, what is your strategy for identifying and requesting 
those funds?
    Answer. Addressing the spread and effects of the bark beetle 
epidemic will require a multi-faceted and multi-year approach, and the 
USFS's fiscal year 2011 budget request reflects this approach and need. 
Specific funding and programs addressing the bark beetle epidemic are 
described below.
    The USFS will continue to fund management action to reduce forest 
susceptibility to beetle outbreaks and protect high-value trees. In 
coordination with partners and stakeholders, the USFS will direct funds 
to the areas that have been experiencing tree mortality as a result of 
beetle infestations both to ensure public safety and to reduce the 
impact on forested ecosystems.
    National Forest System management will prioritize treatments to 
restore health and resilience of forested ecosystems to facilitate 
adaptation to the stresses created by climate change through landscape 
restoration projects. This includes implementing projects to treat 
forested landscapes that are highly vulnerable to bark beetle 
infestations. The expanded use of stewardship contracting will increase 
opportunity to leverage commercial thinning opportunities to accomplish 
additional treatments to enhance forest resiliency by exchanging the 
value of forest products generated for additional restoration 
treatments.
    The forest health management request includes funding to meet the 
highest-priority prevention and suppression needs on forests managed by 
the USFS, other Federal agencies, tribal lands and non-Federal lands. 
Forest health management programs provide for detection, monitoring, 
evaluation, prevention and suppression of bark beetles on the Nations' 
forested lands.
    The Eastern Forest and Western Wildland Environmental Threat 
Assessment Centers--in partnership with Government agencies, 
universities, and nongovernmental organizations--provide national 
leadership in developing knowledge and tools to respond to emerging 
issues and threats associated with new and potential bark beetle 
infestations.
    USFS research scientists will continue to evaluate potential future 
effects of climate change in order to identify natural resource 
vulnerabilities and prioritize management actions to enhance resilience 
of natural systems. This includes development of a cohesive, coherent 
model to help land manager predict the interacting behavior of fire and 
bark beetles under selected climate change scenarios.
    Question. Virtually the entire Black Hills National Forest timber 
sale program is geared to reducing fire hazard or mountain pine beetle 
risk. Further, most of the recent NEPA decisions have included new road 
construction. How will eliminating all funding for road construction/
reconstruction affect implementation of the Black Hills National Forest 
forest plan, reducing fire risks, thinning the forest, and addressing 
the pine beetle epidemic?
    Answer. Fuels management and vegetative treatments needed for 
control of the pine beetle epidemic will focus primarily on areas where 
new road construction and upgrades to existing roads are not required. 
The elimination of the road improvement activity will have little 
impact on the Black Hills National Forest timber sale program. Any new 
road construction will continue to be included as a purchaser 
requirement within the timber sale offering and will therefore be 
funded by the sale product value and not appropriated road funding.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester

                             COLLABORATION

    Question. Anecdotal and collected data show that up-front 
collaboration is breaking the gridlock in our forests and help to get 
work accomplished on the ground. Your agency is encouraging this in the 
budget through new programs like the Forest Landscape Restoration Act 
and the Jobs and Watershed Stabilization Fund, but what are you doing 
to train your district rangers and line officers to facilitate 
collaboration and build local support for projects?
    Answer. The Forest Service (USFS) offers multiple opportunities for 
dynamic learning using both internal and university and partner 
resources. The USFS enables line officers flexibility in their approach 
and allows the individual and situation to dictate what is most 
important in a given situation.
    The USFS is employing a range of methods to train line officers in 
facilitating collaboration. First, the USFS has made available several 
training modules related to collaboration, through the USDA portal for 
e-learning. By completing training courses on this portal, USFS 
employees can earn credits towards development goals.
    Complementing this online resource, line officers will soon be able 
to also use the USFS's Partnership Resource Center, our online vehicle 
for advancing collaboration and partnerships. As part of this effort, 
the USFS is launching a new e-Collaboration feature which will create a 
Web environment for exchanges and networking. The site, scheduled to 
relaunch in May or June 2010, will also offer new resources and tools, 
both internally and externally built and tested.
    The USFS is also actively engaged in various cross-sector, 
capacity-building exercises alongside our partners, the audience with 
whom we implement projects and ideas. One example includes 
participating in a recent capacity-building session in Skamania, 
Washington, with grantees as well as the National Forest Foundation 
(NFF) (recent capacity-building session in Skamania, Washington, with 
grantees).
    The USFS offers line officers a range of peer-learning 
opportunities. Line officers have participated in peer-learning 
sessions, sponsored by the NFF, to exchange knowledge and best 
practices and build relationships, to facilitate stewardship 
contracting and agreements. Working across agencies, line officers have 
also participated in the Bureau of Land Management (BLM) sponsored 
distance learning course, Managing by Network. This course uses WebEx 
conferencing to join participants with their colleagues and a 
management coach to discuss and learn how to manage their work through 
networks of partnerships, contracts, volunteers, and alliances, and how 
to apply best management practices to their current partnerships and 
community collaboration responsibilities.

                                  FIRE

    Question. The fiscal year 2011 budget finally addresses 
firefighting in a separate budget with the Federal Land Assistance, 
Management and Enhancement (FLAME) Fund and the President's 
discretionary fund. Yet you cut the investment in local and State 
firefighting funds. Why? How do you plant to help assist States? Also 
why is it necessary to have two contingency funds? Why is the 
secretarial discretion not sufficient? If it was so important for 
Congress and this subcommittee to pass the authorization for the FLAME 
Act, why was it not necessary for the subcommittee to pass the same 
authorizing authority for the Presidential discretionary fund?
    Answer. The President's budget proposal of $50,104,000 for State 
Fire Assistance (SFA) funding, while down from the fiscal year 2010 
enacted level, is consistent with prior funding requests for this 
account. These program funds complement the SFA program that is funded 
through the State and private forestry appropriation.
    As in prior years, the USFS will continue to provide SFA funding to 
State foresters to address important and unique needs relating to 
hazardous fuel treatment, wildland fire prevention, hazard mitigation, 
and wildland fire suppression response. The SFA funding will continue 
to be used to maintain and enhance coordination and communication with 
Federal agencies as well as for critical preparedness needs including 
firefighter safety, enhanced initial attack capability, and training. 
State foresters make determinations about how to target funding to the 
highest-priority needs identified in their State.
    The proposed budget also contains a discretionary Presidential 
contingency reserve account for firefighting which would be used if the 
Suppression and FLAME Act accounts are exhausted and specific criteria 
are adequately addressed.
    This special contingency account will provide a backstop for the 
unpredictability of fire seasons and ensure that other key EPA programs 
are not disrupted if fire transfer would otherwise have to be employed 
to meet firefighting funding needs in years of above average fire 
activity/costs.
    The Secretary's discretion covers the funding needed to cover the 
10-year average costs for suppressing wildfire. The President's 
Contingency Reserve Fund provides funding over and above the 10-year 
average cost for suppression of fires. It will make available an 
additional $282 million if the fire season is extreme and suppression 
and FLAME Act funds are depleted.

                              ROAD BUDGET

    Question. Your budget drastically reduces the road maintenance 
budget and clearly outlines the USFS's desire to reduce the number of 
roads the USFS maintains by 6,000 miles. To properly remove roads and 
restore watershed takes money. How does defunding this budget properly 
address the goal reducing the USFS's duplicative road infrastructure? 
Wouldn't it be wiser to increase funding to assure roads are properly 
converted to trails, decommissioned and re-contoured?
    In the ``Right Sizing'' of the road system, what steps does the 
USFS consider to be a reclaimed road? Is this fully re-contouring? What 
is the impact on leaving these road beds on water quality and fish 
habitat?
    Answer. The USFS is managing multiple priorities within a 
constrained budget. The reduction reflects a curtailment in the 
construction of new roads and upgrading existing roads while keeping 
the maintenance funding relatively level (a decrease of 1.5 percent) 
with the fiscal year 2010 enacted level. The USFS will focus on 
maintaining the existing transportation system. Other appropriated 
programs such as legacy roads and trails and deferred maintenance and 
infrastructure Improvement complement the roads program. Road work 
accomplished under these programs, including decommissioning, support 
the USFS's priorities to repair and maintain roads and trails that 
affect water resources and ecosystem function, and to reduce the 
deferred maintenance backlog. Nonurgent work will be deferred.
    Road decommissioning decisions are made on a case-by-case basis and 
consider many factors such as topography, climate, geology, and risks 
to threatened and endangered species. Some roads may require 
recontouring to ensure that decommissioning is effective and to 
mitigate resource damage; some roads will be decommissioned with 
limited effort. Those sections that do not require full recontouring 
are considered to be low risk, and have minimal impact on water quality 
and fish habitat.

                             PLANNING RULE

    Question. As you well know the current planning rule was issues in 
1986 and is scientifically and socially outdated. On December 18 you 
announced an effort to write a new planning rule under the National 
Forest Management Act. What is the progress on this effort?
    Do you really think a new rule will solve our problems?
    Answer. The USFS is analyzing public comments received in response 
to the notice of intent issued December 18, 2009. The USFS will host a 
National Science Forum and a series of public meetings through mid-May 
2010 to provide opportunities for public input and dialogue on the 
development of a new planning rule. Further information on these 
meetings is available at on the planning rule Web site, http://
www.fs.usda.gov/planningrule. Through collaboration on the planning 
rule, the USFS will be able to better address current and future needs 
of the National Forest System (NFS) such as restoration, protecting 
watersheds, addressing climate change, sustaining local economies, 
improving collaboration, and working across landscapes. The USFS 
expects to publish the draft environmental impact statement in December 
2010 and the final environmental impact statement in October 2011.

                            ENERGY PLANNING

    Question. Chief Tidwell, the Mountain States Transmission Intertie 
(MSTI) line is working to cite and build a 500kv line in Montana. Some 
of the Environmental Impact Statement (EIS) alternatives for this line 
cross FS land. How are you working with the stakeholders, Interior and 
State Departments to find reasonable solutions to citing this and 
future transmission lines?
    Answer. The USFS is a cooperating EPA in the MSTI project and works 
closely with the joint lead agencies--the BLM and Montana Department of 
Environmental Quality (MDEQ). Under BLM and MDEQ project management, we 
have collaborated with several other agencies, starting in 2008 with 
the Montana Major Facility Act process. We have also participated in 
numerous interagency meetings and public meetings to identify issues 
and alternatives. As alternative routes are proposed in response to 
specific issues, many of those proposals would cross NFS lands outside 
of designated corridors. In those situations, the EPA identifies 
resource concerns and land management plan implications, then 
collaborates to refine the routing in a manner that reduces unnecessary 
conflicts, such as crossing inventoried roadless areas. As a result, 
the USFS has identified a reasonable range of feasible alternatives, 
including some that do cross NFS lands outside of designated corridors. 
Those alternatives will be studied in detail in the draft EIS which is 
scheduled for public release in June 2010.
    Question. What are you doing to work with Interior and the State of 
Montana and plan energy transmission corridors?
    Answer. During forest plan revision, the USFS has been consulting 
with other Federal and State agencies on a variety of topics, including 
utility corridor designation. Recently, the USFS participated with many 
other Federal agencies in the West-wide Energy Corridors process 
mandated by Environmental Protection Act of 2005, section 368. The 
State of Montana has made many valuable comments relative to NFS lands 
on the draft Preliminary Environmental Impact Statement (PEIS), which 
many have been adopted in the final PEIS. As specific major 
transmission projects are proposed, we cooperate with the State first 
in the Montana Major Facility Siting Act process, followed by 
cooperation in the Montana Environmental Protection Act and processes.
    The Forest Service also works closely with BLM and other Federal 
agencies, as outlined in the Memorandum of Understanding Regarding 
Coordination in Federal Agency Review of Electric Transmission 
Facilities on Federal Land (dated October 28, 2009). As individual 
project siting is completed, new or revised energy corridors may be 
designated through land management plan amendment, as provided for in 
subsection 368(c). Prior to issuing the record of decision for the 
section 368 corridors, the Montana Governor's office reviewed the 
corridors as required by the BLM's governors consistency review 
process. Based on that review, Montana offered no revisions for the 368 
corridors on NFS lands.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                           TRAVEL MANAGEMENT

    Question. Recently the Forest Service (USFS) completed a revision 
of the Travel Management Plan in Mississippi. This plan has created 
much consternation among users of the National Forests in Mississippi. 
For many years, forests in Mississippi were open for use for all-
terrain vehicle (ATV) enthusiasts and hunters. Currently, many of the 
trails and roads that were utilized by these users are closed and 
prohibitions on the use of ATVs within the forest also exist. It is my 
hope that the USFS can address the needs of all users.
    Mr. Tidwell, can you tell me what resources the USFS will need to 
ensure that all users of forests will be able to fully access and 
utilize the forests?
    Answer. Very few places exist on the National Forests and 
grasslands that are closed to access by all users. However, the method 
of access and/or time of year may be restricted. The travel management 
rule, promulgated on November 9, 2005, requires that all administrative 
units designate those National Forest System (NFS) roads, NFS trails, 
and areas on NFS lands that are open to motor vehicle use. When making 
designations, specific criteria must be considered including the 
effects on natural and cultural resources, public safety, recreational 
opportunities, etc. Decisions on which NFS routes and areas to 
designate are left up to the local line officers--district rangers and 
forest supervisors--since they are most familiar with the local 
situation.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

                               AIRTANKERS

    Question. Page 137 of the House Report 111-316, accompanying the 
fiscal year 2010 Interior Appropriations Act, states that: ``The 
Conferees reiterate the House and Senate direction concerning readiness 
required for public safety and the requirement that the Forest Service 
provide a copy of its report on Federal air tanker needs, including an 
estimate of replacement costs, within 30 days of enactment of this 
Act.'' (emphasis added)
    Apparently, this report has not yet been submitted. What is the 
status of that report currently, and when can members expect to see it?
    Answer. The Forest Service (USFS) recognizes the need for an 
overall airtanker strategy to plan for a future airtanker fleet and 
will work closely with the subcommittee to develop an acceptable 
strategy to deal with the rapidly aging airtanker fleet. The USFS and 
our interagency partners are also working on the cohesive strategy, as 
directed by the Congress, which will provide strategic insights for 
balancing wildland fire response, fire adapted human communities and 
landscape restoration.
    Question. I am told that, last summer, the Department's Office of 
Inspector General stated that due to the rapidly aging large air 
tankers, individual aircraft will need to be retired for reasons of 
safety in the near future. Do you agree with this prognosis? If not, 
why?
    Answer. The USDA Office of Inspector General's Audit Report No. 
08601-53-SF USFS's Replacement Plan for Firefighting Resources states 
that ``FS estimates that by 2012 the remaining 19 airtankers will begin 
to be either too expensive to maintain or no longer airworthy.'' The 
USFS agrees with the Inspector General's assessment and would add that 
this estimate does not take into account the possibility of additional 
loses from accidents, further reducing fleet size.
    Question. Can you supply relevant data regarding the remaining 
operational service life of the large air tankers that are today in the 
fleet?
    Answer. The estimated remaining time for the aircraft based on 
cycles is as follows:
  --P-3: Attrition begins in 2014 and ends in 2026, half of the 
        attrition occurs by 2016
  --P2V: Attrition begins in 2013 and ends in 2032, half of the 
        attrition occurs by 2017

                         CONCLUSION OF HEARINGS

    Senator Feinstein. So thank you for coming and we look 
forward to working with you.
    And the subcommittee is recessed.
    [Whereupon, at 11:33 a.m., Wednesday, March 17, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

</pre></body></html>
